rl

C@OCKLE

2311 Douglas Street l ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga B t iefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-1009

ALTERA CORPORATION AND SUBSIDIARIES,
Petitioners,

Vv.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CHAMBER OF COMMERCE OF THE UNITED
STATES OF AMERICA AS AMICUS CURIAE IN SUPPORT OF THE PETITION FOR WRIT OF CERTIORARI in the
above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to
the following:

SEE ATTACHED
To be filed for:
STEVEN P. LEHOTSKY CHRISTOPHER J. WALKER
JONATHAN URICK Counsel of Record
U.S. CHAMBER THE OHIO STATE UNIVERSITY
LITIGATION CENTER MORITZ COLLEGE OF LAW
1615 H Street, NW 55 West 12th Avenue
Washington, DC 20062 Columbus, OH 43210
(202) 463-5337 (614) 247-1898

christopher,j.walker@gmail.com
Counsel for the Chamber
of Commerce of the
United States of America

Subscribed and sworn to before me this 13th day of March, 2020.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

     

thes Ondiaw-h, Chl

Affiant 39549

A GENERAL MOTARY-State of Mobraska
RENEE J. GOSS

My Comm. Exp. September 5, 2023

 

Notary Public
 

Attorneys for Petitioner

Nicole A. Saharsky Mayer Brown LLP
Counsel of Record 1999 K Street NW
Washington, DC 20006

nsaharsky@mayerbrown.com

Party name: Altera Corporation & Subsidiaries

 

 

Attorneys for Respondent

Noel J. Francisco Solicitor General
Counsel of Record United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW.
Washington, DC 20530-0001

SupremeCtBriefs@USDOVJ.gov

Party name: Commissioner of Internal Revenue

 

 
